APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the Supreme Court of Vermont
(February 19, 2021) ............................................ 1a
Order of the Vermont Superior Court
(January 29, 2019)............................................ 30a
Opinion and Order of the Superior Court of
Vermont on Motions to Dismiss
(August 9, 2018) ............................................... 34a
OTHER DOCUMENTS
Arbitrator’s Decision
(November 9, 2018) .......................................... 54a
Inspection Contract
(October 17, 2016) ............................................ 58a

App.1a
OPINION OF THE
SUPREME COURT OF VERMONT
(FEBRUARY 19, 2021)
SUPREME COURT OF VERMONT
________________________
COLIN MASSEAU and EMILY MACKENZIE,
v.
SCOTT LUCK, SHARON LUCK, GUY HENNING,
BRICKKICKER/GDM HOME SERVICES, LLC.
________________________
No. 2020-131
On Appeal from Superior Court,
Chittenden Unit, Civil Division
Before: REIBER, C.J., ROBINSON,
EATON, CARROLL and COHEN, JJ.
ROBINSON, J.
¶ 1. Homeowners Masseau and MacKenzie appeal
the trial court’s order confirming an arbitrator’s
ruling dismissing their claims against defendants
Guy Henning and Brickkicker/GDM Home Services,
LLC. Specifically, homeowners challenge the trial
court’s referral of the case to arbitration on the ground
that the purported arbitration agreement lacked the
notice and acknowledgment provisions required under
the Vermont Arbitration Act (VAA), and they urge us
to vacate the arbitrator’s award because the arbitrator
exceeded his authority by manifestly disregarding the
law. We conclude that the parties’ contract affects

App.2a
interstate commerce, and that the arbitration agreement
is therefore governed by the Federal Arbitration Act
(FAA) and is not subject to the more exacting notice
and acknowledgment requirement of the VAA. We do
not decide whether “manifest disregard” of the law is
a basis for vacating an arbitrator’s award because we
conclude that any error in the arbitrator’s legal analysis did not rise to the level of “manifest disregard.” We
thus affirm.
¶ 2. Homeowners allege in their complaint that
in 2016, they hired Guy Henning and Brickkicker/GDM
Home Services, LLC (collectively “inspectors”), to
inspect a house in Essex Junction prior to their closing
on the purchase. Henning was aware of homeowners’
plans to renovate the home while living there, and
thus it was important for him to advise them of the
potential hazards associated with stucco ceilings.
Inspectors conducted the inspection and did not raise
with homeowners the issue of potential asbestos in the
house. Homeowners subsequently discovered asbestos
and sued inspectors for failing to disclose the possibility
that the stucco ceilings contained asbestos.1
¶ 3. Inspectors filed a motion to dismiss, arguing
in relevant part that the parties were required to
arbitrate the dispute pursuant to the arbitration
agreement in their contract, and that homeowners
failed to state a claim on the merits because the
inspection agreement excluded assessment of environmental hazards like asbestos. Homeowners
opposed the motion, arguing that the arbitration clause
1 Homeowners also sued Scott and Sharon Luck, the sellers of
the house. Homeowners subsequently dismissed those claims,
and they are not before us in this appeal.

App.3a
in the parties’ contract was invalid because it lacked
the required notice and acknowledgment under the
VAA, and also because it contained an unconscionable
arbitration-selection term, designating an industrycreated arbitration service as arbitrator. Alternatively, homeowners argued that there is evidence that
the designated arbitration service no longer exists,
thereby invalidating the arbitration agreement. With
respect to the merits, homeowners argued that the
allegations in the complaint were sufficient to support
homeowners’ various claims.
¶ 4. The trial court concluded that the arbitration
agreement was valid and enforceable. In particular,
the court explained that the arbitration clause was
subject to the FAA rather than the VAA and was
compliant with the requirements of the FAA. The
court did invalidate the arbitration-selection clause,
but not the entire arbitration agreement. The court
therefore stayed court proceedings between the parties
pending a final judgment following arbitration and directed the parties to arbitrate with a mutuallyagreed-upon arbitrator.
¶ 5. The parties chose and met with the arbitrator
and agreed that the first issue was to address the
merits of inspectors’ motion to dismiss homeowners’
claims under Vermont Rule of Civil Procedure 12(b)(6).
After considering the parties’ submissions, the arbitrator
determined that the contract was limited in scope and
“clearly excluded—by its express terms—any obligation
to examine for asbestos.” Thus, the arbitrator concluded
that there was no factual basis to support homeowners’
claims against inspectors. The trial court confirmed
the arbitrator’s decision and dismissed homeowners’
claims.

App.4a
¶ 6. On appeal, homeowners renew their arguments that the arbitration provision is unenforceable
and contend that even if the arbitration agreement is
enforceable, this Court should reverse the trial court’s
confirmation, and vacate the underlying arbitration
decision, because the arbitrator exceeded his authority by manifestly disregarding the law. We address
these arguments in turn.
I.

Validity of Arbitration Agreement

¶ 7. The two-page (front and back) contract
between homeowners and Brickkicker, signed by
Henning as agent, stated both below the parties’
signatures on the front and at the bottom of the back,
“CONTRACT IS SUBJECT TO BINDING ARBITRATION.” In addition, paragraph six of ten on the back
of the contract stated, “Any dispute . . . shall be submitted to final and binding arbitration under Rules
and Procedures of the Expedited Arbitration of Home
Inspection Disputes of Construction Arbitration Services,
Inc. . . . .”
¶ 8. Under the FAA, written provisions for arbitration are “valid, irrevocable, and enforceable, save
upon such grounds as exist at law or in equity for the
revocation of any contract.” 9 U.S.C. § 2. The VAA contains similar language, see 12 V.S.A. § 5652(a), but
also requires that an enforceable arbitration agreement
contain a written acknowledgement that provides
“substantially” as follows:
ACKNOWLEDGMENT OF ARBITRATION.
I understand that (this agreement/my
agreement with __________ of __________)
contains an agreement to arbitrate. After

App.5a
signing (this/that) document, I understand
that I will not be able to bring a lawsuit concerning any dispute that may arise which is
covered by the arbitration agreement, unless
it involves a question of constitutional or
civil rights. Instead, I agree to submit any
such dispute to an impartial arbitrator.

Id. § 5652(b).
¶ 9. Homeowners argue that the VAA applies to
the parties’ contract and that because the contract
here did not contain the required “acknowledgment of
arbitration” provision, the arbitration agreement is
unenforceable. Alternatively, they argue that the
arbitration agreement is void because it includes an
unfair arbitration-selection term. Inspectors argue
that the FAA applies and preempts the VAA, and that
the arbitration agreement is therefore enforceable.
They contend that the arbitration-selection term is
severable from the rest of the arbitration provision.
¶ 10. The applicability and effect of the VAA as
compared with the FAA are questions of law that we
review without deference to the trial court’s ruling.
Lofts Essex, LLC v. Strategis Floor & Décor Inc., 2019
VT 82, ¶ 33, ___ Vt. ___, 224 A.3d 116. We review the
trial court’s decision to sever the challenged arbitrationselection term for abuse of discretion. See Armendariz
v. Found. Health Psychcare Servs., Inc., 6 P.3d 669,
695 (Cal. 2000) (decision whether to refuse to enforce
contract as a whole, to enforce remainder of contract
without unconscionable clause, or to limit application
of any unconscionable clause as to avoid any
unconscionable result is reviewed for abuse of discretion).

App.6a
A. Applicability of the Notice Requirement in the
VAA
¶ 11. We conclude that the notice and acknowledgment requirement of the VAA does not apply to
the parties’ arbitration agreement in this case. Our
analysis, set forth more fully below, proceeds in several
steps. First, the reach of the FAA extends to the full
extent of Congress’s authority under the Commerce
Clause. Second, the transaction between the parties
in this case falls within the broad scope of Congress’s
authority under the Commerce Clause. We draw support for this latter conclusion not only from general
Supreme Court case law involving the reach of the
Commerce Clause, but also from specific cases
applying the FAA to intrastate transactions. The
authority relied upon by homeowners does not persuade
us otherwise. Third, because the FAA preempts contrary
state laws, the notice and acknowledgment requirement
of the VAA does not apply here, and the arbitration
agreement is not invalid or unenforceable on account
of any failure to include the notice and acknowledgment
language.
¶ 12. If the transaction between the parties falls
within Congress’s regulatory authority under the
Commerce Clause, their arbitration agreement is subject to the FAA. By its plain terms, the FAA applies to
“contract[s] evidencing a transaction involving
commerce.” 9 U.S.C. § 2. The U.S. Supreme Court has
said that “involving commerce” is the functional
equivalent of “affecting commerce.” Allied-Bruce
Terminix Cos. v. Dobson, 513 U.S. 265, 273-74 (1995).
The breadth of this statutory language reflects an
intent to apply the law expansively, exercising Congress’s “commerce power to the full.” Id. at 277; see

App.7a

also Citizens Bank v. Alafabco, Inc., 539 U.S. 52, 56
(2003) (noting that the term “involving commerce”
signals “the broadest permissible exercise of Congress’
Commerce Clause power” and “encompasses a wider
range of transactions than those actually ‘in commerce’—
that is, ‘within the flow of interstate commerce’”
(quoting Allied-Bruce Terminix Cos., 513 U.S. at 27374)). The threshold question, therefore, is whether the
transaction between the parties in this case falls
within the scope of Congress’s regulatory power under
the Commerce Clause. See U.S. Const. art. 1, § 8, cl. 3
(“Congress shall have Power . . . [t]o regulate Commerce
with foreign Nations, and among the several States,
and with the Indian Tribes.”).
¶ 13. Congress’s power under the Commerce
Clause is broad. It includes the ability to regulate (1)
“the use of the channels of interstate commerce,” (2)
“the instrumentalities of interstate commerce, or
persons or things in interstate commerce, even though
the threat may come only from intrastate activities,”
and (3) “activities that substantially affect interstate
commerce.” United States v. Lopez, 514 U.S. 549, 55859 (1995). The U.S. Supreme Court has recognized
this final category of activities substantially affecting
interstate commerce to include: “intrastate coal mining,
intrastate extortionate credit transactions, restaurants
utilizing substantial interstate supplies, . . . and
production and consumption of homegrown wheat.”
Id. at 559-60 (citations omitted).
¶ 14. Applying these general principles, the U.S.
Supreme Court has held that the FAA applied to
intrastate transactions in two cases that are relevant
to our analysis here. In Allied-Bruce, following a
termite infestation, a homeowner sued the franchisee

App.8a
of an international exterminator company from whom
she had bought a lifetime termite-protection plan. The
exterminators invoked the arbitration provision in
their contract and sought a stay to allow for arbitration
under the FAA. The state courts denied the stay on
the basis that when the parties entered into their contract, they “contemplated” a primarily local transaction that was not “substantially” interstate. AlliedBruce, 513 U.S. at 269. The Supreme Court reversed.
Rejecting the “contemplation” test, the Court
concluded that the relevant question is whether the
transaction in fact involved interstate commerce, even
if the parties did not contemplate an interstate
commerce connection. Id. at 281. Applying this test to
the facts of the case, the Court noted that the parties
did not contest that their transaction did, in fact,
involve interstate commerce, and pointed to the
multistate nature of both the franchisor and its
franchisee, and the fact that the home-repair material
used by the franchisee came from out of state, in support of that conclusion. Id. At 282. Because the
franchisee in the Allied-Bruce case was itself a multistate
firm, the decision sheds little light on the significance
of a local business’s franchise arrangement with a
national company, but the decision does confirm that
the parties’ expectations as to the impact of their
transaction on interstate commerce are neither relevant
nor determinative of the reach of the FAA.
¶ 15. In Alafabco, the Court reaffirmed the broad
scope of the FAA, holding that debt-restructuring
agreements executed in Alabama between an Alabama
company and an Alabama bank were subject to the
FAA under the “involving commerce” test. 539 U.S. at
57. The Alabama Supreme Court concluded that the

App.9a
FAA did not apply because there was no showing that
the restructured debt was attributable to interstate
transactions, that the funds comprising the debt
originated out of state, or that the restructured debt
was inseparable from any out-of-state projects. Id. at
55. The U.S. Supreme Court reversed, relying on the
facts that the company had “engaged in business
throughout the southeastern United States using substantial loans from the bank” that were implicated by
the debt-restructuring agreements; the debt was
secured in part by the company’s inventory of goods
made from out-of-state parts and materials; and the
impact of the “general practice” of commercial lending
on the national economy. Id. at 57-58. The lesson of
Alafabco for this case is that even where a particular
transaction is wholly intrastate with no specific effect
on interstate commerce, it is within Congress’s reach
if “in the aggregate the economic activity in question
would represent a general practice subject to federal
control.” Id. at 56-57 (quotation omitted) (alteration
omitted).
¶ 16. Although this is a close case, on the basis of
these considerations, we conclude that the homeinspection contract between the parties does substantially affect interstate commerce for two reasons. First,
inspectors operated their business pursuant to a
franchise agreement with a company located outside
of Vermont. We lack a sufficient record to determine
the extent of impact on interstate commerce arising
from this franchise relationship, but conclude that the
fact that inspectors’ service to homeowners was
facilitated at least in part by their transaction in
interstate commerce with the national company with
whom they have a franchise agreement carries some

App.10a
weight.2 Second, although the parties’ contract and
the ensuing home inspection took place in Vermont,
we cannot conclude that the transaction—when
considered along with similar transactions “in the
aggregate”—falls outside the sweeping scope of the
Commerce Clause. Home inspections are frequently
preconditions to securing financing to buy a house,
and are accordingly integral to the real estate market.
As a New York trial court explained persuasively in
an unpublished decision addressing the same issue,
“Here the inspection facilitates the home’s purchase
and without a doubt such activity affects commerce.”
Johnson v. Ace Home Inspections of Upstate N.Y., 52
N.Y.S.3d 246, 2017 WL 1050333, at *2 (City Court,
Cohoes Cty. Jan. 19, 2017) (unpub. disposition). We
need not determine whether either factor alone would
support the conclusion that the parties’ transaction
was subject to Congress’s regulatory authority; together,
the two considerations reinforce that conclusion.
¶ 17. The cases relied upon by homeowners do
not convince us otherwise. In Eli Lilly & Co. v. SavOn-Drugs, Inc., a pharmaceutical company argued
that the State of New Jersey’s attempt to require it to
obtain a certificate to do business in the state violated
the Commerce Clause because its business dealings in
New Jersey were exclusively interstate commerce.
2 Inspectors assert in their brief, with no citation to the record,
that we should conclude that the transaction affected interstate
commerce because they are part of a national home-inspection
franchise involved in multistate home inspections, they advertise
and schedule through a centralized national website, and they
use the same brochures, description of services, paperwork, and
inspection report templates. We do not rely on these representations because they were apparently offered for the first time on
appeal and lack any support in the record.

App.11a
366 U.S. 276 (1961). The Court concluded that the
company could be required to register because it was
engaged in intrastate business but did not suggest
that the company was not also engaged in interstate
commerce. See id. at 282-84. Likewise, in the second
case cited by homeowners, this Court concluded that
a foreign corporation was engaged in intrastate business
in Vermont such that it was required to register under
Vermont laws. Pennconn Enters., Ltd. v. Huntington,
148 Vt. 603, 606-07, 538 A.2d 673, 675-76 (1987). The
context and conclusions in these cases have little
bearing on the issue here. In this case, there is no
dispute that the parties’ contract took place in intrastate
commerce. The question, rather, is whether the transaction affects interstate commerce.
¶ 18. Likewise, we are unpersuaded by homeowners’ reliance on an unreported federal case from
the District of Nevada, where the court concluded it
could not “find that home inspections of Nevada homes
have a substantial impact on interstate commerce.” Del
Webb Cmtys., Inc. v. Partington, No. 2:08-CV-00571RCJ-GWF, 2009 WL 3053709, at *17 (D. Nev. Sept.
18, 2009). In that case the court addressed whether a
home-inspection company made false statements in
interstate commerce in violation of the federal Lanham
Act. The court concluded that there was an issue of
fact as to whether the company made statements on
its website advertising to conduct home inspections in
other states, which would have made those statements “in interstate commerce.” Id. at *16. In this
case, the relevant question is not whether any specific
allegedly false statements were made in interstate
commerce, but whether the transaction in its entirety
affects interstate commerce. In sum, we conclude that

App.12a
the underlying transaction in this case affects interstate
commerce and the FAA therefore applies.
¶ 19. Because the FAA applies, it preempts the
notice and acknowledgment requirement of the VAA.
Although the U.S. Supreme Court has held that state
law may be applied “if that law arose to govern issues
concerning the validity, revocability, and enforceability
of contracts generally,” courts cannot invalidate arbitration agreements under state laws applicable only
to arbitration provisions. Doctor’s Assocs., Inc. v.
Casarotto, 517 U.S. 681, 686-87 (1996) (emphasis
omitted). The FAA therefore preempts the VAA to the
extent that the VAA requires a specific notice and acknowledgment. The FAA “mandate[s] the enforcement of
arbitration agreements,” Southland Corp. v. Keating,
465 U.S. 1, 10 (1984), except on grounds existing “at
law or in equity for the revocation of any contract,” 9
U.S.C. § 2. For the above reasons, we reject homeowners’
contention that the arbitration agreement is unenforceable because it does not contain the notice and
acknowledgement language required by the VAA.3
B. Severability of Arbitration Forum Selection
¶ 20. We also reject homeowners’ argument that
the trial court improperly excised an unconscionable
arbitration forum selection term from the parties’ contract rather than striking the arbitration agreement as
a whole. Homeowners contend that notwithstanding
the severability clause in the parties’ contract, the
3 Since we conclude that the notice and acknowledgement requirement is preempted, we do not address whether the contract here
provided notice sufficient to meet the requirements of 12 V.S.A.
§ 5652.

App.13a
arbitration-selection term cannot be excised from the
arbitration provision as a whole, and that the fact that
inspectors presented them with a contract with an
arbitration provision that had been called into question
in a prior decision of this Court rendered the contract
void. See Glassford v. BrickKicker, 2011 VT 118, ¶ 13,
191 Vt. 1, 35 A.3d 1044.
¶ 21. In Glassford, this court did not address the
validity of the arbitration-selection term; we struck
the entire arbitration provision because it was
unconscionable when coupled with a limit on liability
that is not included in the contract in this case. See id.
In a separate opinion, Justice Dooley indicated that he
would have stricken the limit on liability and remanded
for the trial court to consider the conscionability of the
arbitration provision in light of, among other things,
the allegedly unfair arbitration forum selection term.
Id. ¶ 35 (Dooley, J., concurring and dissenting).
¶ 22. We need not address the conscionability of
the arbitration forum selection term here because the
trial court struck it from the contract. Homeowners
have cited no authority supporting its argument that
defects in the arbitration forum selection term render
the entire arbitration provision void as a matter of
law. The arbitration-selection term was not central to the
purpose of the arbitration agreement, or the contract
as a whole, and can be excised without undermining
the essential terms and purpose of the contract. Cf.
Armendariz, 6 P.3d at 774-75 (“If the central purpose
of the contract is tainted . . . then the contract as a
whole cannot be enforced. If the illegality [or unconscionability] is collateral to the main purpose of the
contract, and the illegal [or unconscionable] provision
can be extirpated from the contract by means of

App.14a
severance or restriction, then such severance and
restriction are appropriate.”); In re Poly-Am., L.P.,
262 S.W.3d 337, 360 (Tex. 2008) (concluding that
unconscionable provision in arbitration agreement
may be severed “so long as it does not constitute the
essential purpose of the agreement”); see also 9 V.S.A.
§ 6055(c)(1) (“If a court finds that a standard-form
contract contains an illegal or unconscionable term,
the court shall: (A) refuse to enforce the entire contract or the specific part, clause, or provision containing the illegal or unconscionable term; or (B) so
limit the application of the illegal or unconscionable
term or the clause containing such term as to avoid
any illegal or unconscionable result.”) (effective Oct. 1,
2020).
¶ 23. For the above reasons, we conclude that the
arbitration agreement was valid and enforceable and
affirm the trial court’s order referring the matter for
arbitration.
II.

Manifest Disregard of the Law

¶ 24. We also decline to reverse the trial court’s
confirmation of the arbitrator’s dismissal order on the
basis that the arbitrator demonstrated manifest disregard of the law. As noted above, the gravamen of
homeowners’ various claims was that inspectors should
have informed them that there was a risk of asbestos
contamination in the stucco ceilings in the basement
of the inspected home. Inspectors moved to dismiss
homeowners’ claims on the basis that inspection for
asbestos was beyond the scope of the parties’ contract.
In particular, the contract contained prominently
displayed and highlighted statements, on both sides,
that “THIS IS A LIMITED INSPECTION.” On the

App.15a
back of the agreement, within an enumerated list of
ten conditions, the contract stated,
The Client acknowledges what is being contracted for is a building inspection and not an
environmental evaluation and the inspection
is not intended to detect, identify, alert, or
disclose any health or environmental concerns
regarding the building(s) and/or adjacent
property, including, but not limited to, the
presence of asbestos. . . .
¶ 25. In responding to inspectors’ motion,
homeowners relied on a state regulation and several
allegations in their complaint that they contend
precluded dismissal on the basis argued by inspectors.
Administrative Rules for Property Inspectors Rule
3.2(e)(3)(C) specifically provides that an inspector is
not required to inspect for “the presence, absence, or
risk of asbestos . . . provided, however, that licensees
shall report visible and patent evidence of asbestos.”
Administrative Rules for Property Inspectors, Rule
3.2(e)(3)(C), Code of Vt. Rules 04 030 007, https://sos.
vermont.gov/media/1x5acqgz/administrative-rulesfor-property-inspectors.pdf [https://perma.cc/V8X9YXUP]. Homeowners argue that as a legal matter,
inspectors had a duty to report “visible and patent evidence of asbestos” notwithstanding any contractual
limitations on the scope of the inspection. To establish
that inspectors encountered such visible and patent
evidence of asbestos, homeowners alleged, “It is
commonly known in the housing industry that stucco
ceilings installed in the 1970s contained asbestos.
This is important information that any housing inspector
should have known.” They further alleged that Henning
was aware that the house was built in 1972, but did

App.16a
not mention that textured ceilings were likely to contain asbestos, bring up the potential for asbestos in
houses built during the 1970s, or state that testing for
asbestos may be advisable in houses of that age.
¶ 26. The arbitrator, purportedly addressing
inspectors’ motion to dismiss pursuant to Civil Rule
12(b)(6), dismissed homeowners’ claims on the ground
that there was no factual basis to support them. He
reasoned that the contract expressly stated that the
inspection was not intended to detect, identify, or disclose the presence of asbestos and homeowners could
have contracted for a more comprehensive inspection.
The arbitrator was unpersuaded by homeowners’
citation to the administrative rules governing inspections because there was no allegation to support the
claim that there was “visible and patent” evidence of
asbestos in the home at the time of the inspection. The
arbitrator dismissed as “conclusory” the allegations
that it is commonly known in the housing industry
that homes built in the 70s with stucco ceilings might
harbor hidden asbestos, and that home inspectors
should have known this. The trial court affirmed the
arbitrator’s decision against the homeowners’ motion
to vacate the ruling, noting that homeowners had
authorized the arbitrator to rule on the motion to
dismiss, and otherwise declining to revisit the
arbitrator’s decision.
¶ 27. On appeal, homeowners ask this Court to
recognize “manifest disregard of the law” as a basis to
vacate the arbitration decision. They contend that
failing to do so would deprive Vermonters of their
right to a remedy at law which is protected by the
Vermont Constitution. See Vt. Const. ch. I, art. 4.
They argue that the arbitrator manifestly disregarded

App.17a
the law here by declining to credit their factual
allegations and dismissing them as “conclusory” when
he was required to accept them as true for the purposes of his evaluation of inspectors’ motion to dismiss
under Civil Rule 12(b)(6).
¶ 28. The FAA does not expressly authorize courts
to vacate arbitration decisions on the basis of arbitrators’
legal errors, and whether manifest disregard of the
law is a basis for vacating an arbitration decision
under the FAA remains an open question. Those courts
that have applied a “manifest disregard” standard have
applied it narrowly; the standard does not authorize
courts to vacate all arbitration decisions shaped by
legal error. Because we conclude that the arbitrator’s
legal error in this case, if any, did not rise to the level
of “manifest disregard” as defined by those courts that
have applied the standard, we do not address whether
the trial court or this Court is empowered to vacate
the arbitrator’s decision on this basis.
¶ 29. Legal errors are not among the grounds for
vacating an arbitration award expressly identified in
the FAA. We have stressed that the standard of
review of an arbitration award by the trial court or by
this Court is very limited. See Burlington Adm’rs’
Ass’n v. Burlington Bd. of Sch. Comm’rs, 2016 VT 35,
¶ 14, 201 Vt. 565, 145 A.3d 844; Vt. Built, Inc. v.
Krolick, 2008 VT 131, ¶ 13, 185 Vt. 139, 969 A.2d 80.
The FAA provides four bases on which a court can
vacate an arbitration award: “where the award was
procured by corruption, fraud, or undue means”;
where an arbitrator was evidently partial or corrupt;
where an arbitrator engages in misconduct that prejudices the rights of any party, such as by refusing to
postpone the hearing despite sufficient cause or

App.18a
refusing to hear pertinent evidence; or “where the
arbitrators exceeded their powers, or so imperfectly
executed them that a mutual, final, and definite
award upon the subject matter submitted was not
made.” 9 U.S.C. § 10(a)(1)-(4).
¶ 30. Whether “manifest disregard of the law” is
a basis for vacating an arbitration award—either as
an additional ground or as a corollary to the statutorily
enumerated bases, remains an open question. In
Krolick, we interpreted the United States Supreme
Court’s decision in Hall Street Assocs., LLC v. Mattell,
Inc., 552 U.S. 576 (2008), as holding that under the
FAA a court has no authority to review for an
arbitrator’s legal errors. 2008 VT 131, ¶ 13 n.2. However,
in the wake of a subsequent U.S. Supreme Court decision, we concluded that the U.S. Supreme Court has
left open the question of whether manifest disregard of
the law is “‘an independent ground for review’” of an
arbitration award or “‘a judicial gloss on the enumerated grounds for vacatur’” under the FAA. Burlington
Adm’rs’ Ass’n, 2016 VT 35, ¶ 15 (quoting Stolt-Nielsen
S.A. v. AnimalFeeds Int’l Corp., 559 U.S. 662, 672 n.3
(2010)); see also Weiss v. Sallie Mae, Inc., 939 F.3d
105, 109 (2d Cir. 2019) (“[M]anifest disregard remains
a valid ground for vacating arbitration awards whether
applied as judicial gloss or as an independent
basis. . . . ” (quotation omitted)). Accordingly, whether
courts are empowered to apply the manifest disregard
doctrine under either the VAA or FAA is again an
open question. See Burlington Adm’rs’ Ass’n, 2016 VT
35, ¶¶ 16-17.
¶ 31. Even if “manifest disregard” is a basis for
vacating an arbitrator’s decision, it does not allow a
court to do so on the basis of ordinary legal errors. We

App.19a
have recognized that courts applying the manifest disregard doctrine to vacate arbitration awards do so on
a very limited basis, viewing the arbitrator’s decision
with considerable deference. See id. ¶¶ 17-18. The
Second Circuit has held that a court may vacate an
arbitration award for manifest disregard of the law
only where it “finds both that (1) the arbitrators knew
of a governing legal principle yet refused to apply it or
ignored it altogether, and (2) the law ignored by the
arbitrators was well defined, explicit, and clearly
applicable to the case.” Wallace v. Buttar, 378 F.3d
182, 189 (2d Cir. 2004) (quotation and alteration
omitted); see also Burlington Adm’rs’ Ass’n, 2016 VT
35, ¶ 18 (recognizing two-pronged test for proving
manifest disregard). Manifest disregard of the law is
therefore more than “mere error in the law or failure
on the part of the arbitrators to understand or apply
the law.” Westerbeke Corp. v. Daihatsu Motor Co.,
304 F.3d 200, 208 (2d Cir. 2002); see also Giller v.
Oracle USA, Inc., 512 Fed App’x 71, 73-74 (2d Cir.
2013) (summary order) (“[T]he manifest disregard of
law standard essentially bars review of whether an
arbitrator misconstrued a contract.” (quotation
omitted)). A court applying this standard should only
vacate an arbitration award “‘in those exceedingly
rare instances where some egregious impropriety on
the part of the arbitrator is apparent,’” such as “‘when
an arbitrator strays from interpretation and application
of the agreement and effectively dispenses [their] own
brand of industrial justice.’” Weiss, 939 F.3d at 109
(first quoting T.Co Metals, LLC v. Dempsey Pipe &
Supply, Inc., 592 F.3d 329, 339 (2d Cir. 2010); then
quoting Stolt-Nielsen S.A., 559 U.S. at 671). The arbitration award should be upheld if “the arbitrator has

App.20a
provided even a barely colorable justification” for the
arbitrator’s interpretation. Id. (quotation omitted).
¶ 32. Given this standard, even assuming that
courts are empowered to vacate an arbitrator’s decision
based on manifest disregard of the law—which we do
not decide—the asserted legal error in the arbitrator’s
decision here does not rise to the level of manifest disregard. Homeowners’ argument is that the arbitrator
misapplied the standard under Civil Rule 12(b)(6) in
evaluating inspectors’ motion to dismiss. Homeowners
do not contend that arbitrators are necessarily bound
by the rules of civil procedure. Cf. Robbins v. Day, 954
F.2d 679, 685 (11th Cir. 1992) (“Arbitration proceedings
are not constrained by formal rules of procedure or
evidence.”), overruled on other grounds by First Options
of Chicago, Inc. v. Kaplan, 514 U.S. 938, 948 (1995).
But they emphasize that in this case the arbitrator
purported to decide inspectors’ motion to dismiss pursuant to Civil Rule 12(b)(6) and then ignored the standards applicable under that rule. Homeowners have
not identified an egregious impropriety by the
arbitrator, or even a deliberate disregard of the
applicable standard; their argument is that the
arbitrator’s analysis and conclusion are clearly wrong
as a matter of law. This kind of straightforward
misapplication of the applicable legal standard is not
the type of legal error that is grounds for vacating an
arbitration decision, even where “manifest disregard”
is a recognized basis for vacatur. See ARMA, S.R.O. v.
BAE Sys. Overseas, Inc., 961 F. Supp. 2d 245, 269
(D.D.C. 2013) (concluding petitioner’s request to vacate
based on manifest disregard of summary-judgment
standard “fail[s] on the ground that this Court cannot
correct errors in an arbitrator’s reasoning, even when

App.21a
[the arbitrator] substantially misapplies an established
legal standard”); Westerbeke Corp., 304 F.3d at 208
(“To vacate the award, we must find something
beyond and different from a mere error in the law or
failure on the part of the arbitrators to understand or
apply the law.” (quotation omitted)); cf. Wallace, 378
F.3d at 193 (holding that “manifest disregard of the
evidence” is not proper ground for vacating arbitrator’s
decision).
¶ 33. For these reasons, we affirm the trial court’s
order confirming the arbitration decision in this case.
Affirmed.
FOR THE COURT:
/s/ Beth Robinson
Associate Justice

App.22a
CONCURRING OPINION
BY CHIEF JUSTICE REIBER
(JANUARY 29, 2019)
¶ 34. REIBER, C.J., concurring. I reluctantly join
the majority’s holding—that the parties’ contract
implicates interstate commerce and that the Federal
Arbitration Act (FAA) governs their arbitration
agreement—because the United States Supreme Court’s
recent authority incorporates a broad construction of
the FAA that compels this outcome. I write separately
to make the point that the FAA was not intended to
apply in this instance, and this outcome deprives the
citizens of our state a remedy under the Vermont
Arbitration Act (VAA) that offers greater protection
than the FAA.
¶ 35. The FAA was enacted as a procedural statute,
and 9 U.S.C. § 2 makes no express mention of state
courts or state law. It provides that an arbitration
provision in “a contract evidencing a transaction
involving commerce” is valid and enforceable, “save
upon such grounds as exist at law or in equity for the
revocation of any contract.” 9 U.S.C. § 2 (originally
enacted as United States Arbitration Act, ch. 213, § 2,
43 Stat. 883 (1925)). But in 1984, the Court held that
§ 2 of the FAA created substantive law that applies in
both federal and state court, and accordingly preempts
state law whenever state law creates requirements
that apply to arbitration agreements but not to all
contracts. Southland Corp. v. Keating, 465 U.S. 1, 16
(1984). In effect, Southland limits the ability of states
to fashion arbitration laws that provide more protection
than federal law.

App.23a
¶ 37. In dissent, Justice O’Connor argued that
the Court construed the FAA incorrectly. Her dissent,
worth reading in full, makes three key points. First,
the Court misread two earlier decisions underlying its
holding, neither of which involved state court litigation
nor held that the FAA creates substantive law that
applies in state court. Southland, 465 U.S. at 23-24
(O’Connor, J., dissenting); see Prima Paint Corp. v.
Flood & Conklin Mfg. Co., 388 U.S. 395, 404-05 (1967),
and Moses H. Cone Mem’l Hosp. v. Mercury Constr.
Corp., 460 U.S. 1, 23 (1983). Second, the FAA’s legislative history unambiguously and conclusively establishes that “the 1925 Congress viewed the FAA as a
procedural statute, applicable only in federal courts”
and passed it under Congress’s authority to control
federal court jurisdiction. Southland, 465 U.S. at 25
(O’Connor, J., dissenting). Third, §§ 3 and 4 of the
FAA explicitly limit the FAA’s application to federal
courts, so the statutory structure does not support the
holding that § 2 applies in state courts. Id. at 22, 29.
Most legal scholars have agreed with her conclusion.
See, e.g., M. Moses, Statutory Misconstruction: How

the Supreme Court Created a Federal Arbitration
Law Never Enacted by Congress, 34 Fla. St. U. L. Rev.

99, 99, 125 (2006) (arguing that judicial construction
has rendered FAA “unrecognizable as the law Congress
adopted in 1925” and noting that “almost all of the
commentators who have written about Southland agree
that this case was wrongly decided and inconsistent
with congressional intent”).
¶ 37. But ignoring the clear line of authority cited
by Justice O’Connor, subsequent decisions construing
the FAA’s range broadened its preemptive effect. In
Allied-Bruce Terminix Companies, Inc. v. Dobson, the

App.24a
Court interpreted the phrase “involving commerce” in
§ 2 to encompass the full scope of the Commerce
Clause. 513 U.S. 265, 277 (1995). The broad reach of
the commerce power extends to economic activities
that, even if entirely intrastate, substantially affect
interstate commerce in the aggregate. See United
States v. Lopez, 514 U.S. 549, 558-59 (1995). Following
this reasoning, § 2 sweeps up into its fold virtually
every commercial contract containing an arbitration
provision within the bounds of the FAA—and consequently preempts state arbitration law. Justice Scalia
dissented in Allied-Bruce, concluding that the Court’s
FAA jurisprudence “entails a permanent, unauthorized eviction of state-court power to adjudicate a
potentially large class of disputes.” 513 U.S. at 285
(Scalia, J., dissenting). Justice Thomas also dissented,
laying out a persuasive argument that built on Justice
O’Connor’s dissent in Southland and noted that despite
a lack of clear congressional intent to preempt, the
Court “displaced an enormous body of state law.” Id.
at 293 (Thomas, J., dissenting). The Supreme Court of
Alabama summarized the implications for state courts:
[I]t would be difficult indeed to give an example
of an economic or commercial activity that
one could, with any confidence, declare beyond
the reach of Congress’s power under the
Commerce Clause, and, by extension, under
the FAA. While there can be no per se rule
that would preclude a trial court’s role in
evaluating whether a contract “evidence[es]
a transaction involving commerce,” . . . a trial
court evaluating a contract connected to
some economic or commercial activity would
rarely, if ever, refuse to compel arbitration

App.25a
on the ground that the transactions lacked
“involvement” in interstate commerce.

Serv. Corp. Int’l v. Fulmer, 883 So.2d 621, 629 (Ala.
2003) (footnote and citation omitted).
¶ 38. We face the same dilemma here. When the
Vermont Legislature adopted the Uniform Arbitration
Act and enacted the VAA, it added an acknowledgment
requirement: to be enforceable, arbitration agreements
must contain an acknowledgment, signed by each
party, showing that the parties understand that they
are agreeing to arbitrate and consequently will not be
able to litigate any disputes arising out of the agreement,
unless the dispute implicates constitutional or civil
rights. 12 V.S.A. § 5652(b); see Joder Bldg. Corp. v.
Lewis, 153 Vt. 115, 118-19, 569 A.2d 471, 472-73
(1989). The Legislature added this requirement in 12
V.S.A. § 5652, which begins by providing, like the
FAA, that an arbitration provision or agreement
“creates a duty to arbitrate, and is valid, enforceable,
and irrevocable, except upon such grounds as exist for
the revocation of a contract.” Id. § 5652(a). By including
the acknowledgment requirement after stating that
arbitration agreements are generally valid, the
Legislature clearly intended not to disfavor arbitration
agreements, but simply to ensure that the parties are
adequately informed before they sign the contract that
contains this clause. This is because “[b]y agreeing to
submit a controversy to arbitration, parties waive
important rights, including trial by jury, procedural
protections offered by the courts, and appellate review
by an independent judiciary.” Knaresborough Enters.,
Ltd. v. Dizazzo, 2021 VT 1, ¶ 11, ___ Vt. ___, ___ A.3d
___.

App.26a
¶ 39. The FAA contains no similar acknowledgment requirement. Because the VAA requirement
applies only to arbitration agreements and not to contracts generally, § 2 of the FAA preempts the VAA’s
acknowledgment requirement whenever an arbitration agreement falls within the FAA’s broad jurisdiction. See Southland, 465 U.S. at 16. As a result,
Vermont’s acknowledgement requirement in 12
V.S.A. § 5652(b) is preempted here. See David L.
Threlkeld & Co., Inc. v. Metallgesellschaft Ltd. (London),
923 F.2d 245, 249-50 (2d Cir. 1991) (holding that FAA
preempts VAA acknowledgement requirement).
¶ 40. The U.S. Supreme Court has acknowledged
that “[t]he FAA contains no express pre-emptive
provision, nor does it reflect a congressional intent to
occupy the entire field of arbitration.” Volt Info. Scis.,
Inc. v. Bd. of Trs. of Leland Stanford Jr. Univ., 489
U.S. 468, 477 (1989). Rather, state arbitration law is
preempted “to the extent that it actually conflicts with
federal law—that is, to the extent that it stands as an
obstacle to the accomplishment and execution of the
full purposes and objectives of Congress.” Id. (quotation
omitted). Following this guidance, the Montana Supreme
Court concluded that the FAA did not preempt a
provision in the Montana Arbitration Act requiring
specific notice that a contract contains an arbitration
clause. The Court explained:
Our conclusion that Montana’s notice requirement does not undermine the policies of the
FAA is based on the Supreme Court’s conclusion that it was never Congress’s intent when
it enacted the FAA to preempt the entire
field of arbitration, and its further conclusion
that the FAA does not require parties to

App.27a
arbitrate when they have not agreed to do
so. . . .
Presumably, therefore, the Supreme Court
would not find it a threat to the policies of
the [FAA] for a state to require that before
arbitration agreements are enforceable, they
be entered knowingly. To hold otherwise would
be to infer that arbitration is so onerous as a
means of dispute resolution that it can only
be foisted upon the uninformed. That would
be inconsistent with the conclusion that the
parties to the contract are free to decide how
their disputes should be resolved.
Montana’s notice requirement does not preclude parties from knowingly entering into
arbitration agreements, nor do our courts
decline to enforce arbitration agreements
which are entered into knowingly.

Casarotto v. Lombardi, 901 P.2d 596, 597-98 (Mont.
1995) (quotation omitted), rev’d sub. nom. Doctor’s
Assocs. v. Casarotto, 517 U.S. 681 (1996). However,
the U.S. Supreme Court disagreed. It explained that
because Montana’s notice requirement would invalidate
the arbitration provision, the requirement undermined
the goals and policies of the FAA, which are “antithetical
to threshold limitations placed specifically and solely
on arbitration provisions.” Doctor’s Assocs. Inc., 517
U.S. at 688. Following Southland, the Court concluded
that the FAA preempted Montana law. Id.
¶ 41. The Court’s preemption doctrine belies this
conclusion. While the Supremacy Clause of the U.S.
Constitution empowers the federal government to
preempt state law, the Court “assume[s] Congress

App.28a
does not exercise [this power] lightly” and only displaces
state law when it is “absolutely certain that Congress
intended such an exercise.” Gregory v. Ashcroft, 501
U.S. 452, 460, 464 (1991). Thus, the Court presumes
“that the historic police powers of the States were not
to be superseded by [federal law] unless that was the
clear and manifest purpose of Congress.” Rice v. Santa
Fe Elevator Corp., 331 U.S. 218, 230 (1947). Neither
the text nor the legislative history of the FAA
demonstrates any manifest intent to preempt state
law, and in the absence of congressional intent,
preemption is inappropriate. See Allied-Bruce, 513
U.S. at 293 (Thomas, J., dissenting); Moses, supra, at
133-34 (explaining that, given lack of congressional
intent, “one might expect the Court to tread lightly in
the area of FAA preemption” but “[i]nstead, the Court
has come down heavily in favor of preemption, leaving
little room to the states to regulate in this area”).
¶ 42. The result is inconsistent with principles of
federalism and harmful to consumers. Under these
decisions, “federal courts have increasingly policed,
and struck down . . . safeguards on arbitration passed
by state legislatures.” B. Farkas, The Continuing
Voice of Dissent: Justice Thomas and the Federal
Arbitration Act, 22 Harv. Negot. L. Rev. 33, 47 (2016).
State notice requirements, which have been adopted
by “a mix of traditionally conservative and liberal”
states, are intended to protect consumers and parties
with unequal bargaining power by ensuring that they
knowingly agree to arbitrate any disputes and forego
rights they would have in court. Id. at 41 43. As the
Montana Supreme Court explained, these requirements
do not prevent parties from entering into arbitration
agreements or otherwise undermine arbitration

App.29a
agreements. Casarotto, 901 P.2d at 597. Such protections
simply do not conflict with the FAA.
¶ 43. Moreover, in this case, there is scant evidence
to suggest that the parties’ contract implicates interstate
commerce. The record reflects that the contract’s only
connection to interstate commerce is that defendant
inspector operates its business under a franchise
agreement with a company located outside of Vermont.
But the parties to the contract—the homeowner and
the individual hired to perform the inspection—are
Vermont residents. The contract was signed in Vermont
and the work was to take place within Vermont’s
borders. Yet we cannot conclude that home inspections,
in the aggregate, do not substantially affect interstate
commerce. So, the FAA applies and preempts Vermont
law. While the majority outcome is consistent with the
United States Supreme Court’s FAA jurisprudence, I
write to make the point that the FAA when passed by
Congress was not originally intended to preempt state
law in such situations.
¶ 44. I am authorized to state that Justice Cohen
joins this concurrence.
/s/ Paul L. Reiber
Chief Justice
/s/ Harold E. Eaton, Jr.
Associate Justice
/s/ Karen R. Carroll
Associate Justice
/s/ William D. Cohen
Associate Justice

App.30a
ORDER OF THE VERMONT SUPERIOR COURT
(JANUARY 29, 2019)
SUPERIOR COURT OF VERMONT
CIVIL DIVISION, CHITTENDEN UNIT
________________________
MASSEAU ET Al,
v.
LUCK ET AL.
________________________
Docket No. 616-6-17 Cncv
Before: Helen M. TOOR, Superior Court Judge.
ENTRY REGARDING MOTION
Count 1, Fraud or Non-Disclosure (616-6-17 Cncv)
Count 2, Fraud or Non-Disclosure (616-6-17 Cncv)
Count 3, Fraud or Non-Disclosure (616-6-17 Cncv)
Count 4, Fraud or Non-Disclosure (616-6-17 Cncv)
Title: Motion to Confirm the Award in Arbitrator’s
Ruling (Motion 7)
Filer: Guy Henning
Attorney: Walter E. Judge
Filed Date: November 14, 2018
Response filed on 12/31/2018 by Attorney Walter E.
Judge for Defendant Brickkicker/GDM Home
Services, I
Brickkickers/GDM and Guy Hennings Reply;

App.31a
Response filed on 01/14/2019 by Attorney Thomas C.
Nuovo for Plaintiff Emily MacKenzie
Plaintiff’s Sur-Reply;
Response filed on 01/22/2019 by Attorney Walter E.
Judge for Defendant Brickkicker/GDM Home Services
Plaintiffs in this case sue the sellers from whom
they bought their home and the inspector (and inspection
company) who did the pre-sale inspection. Plaintiffs
allege that there is asbestos in the home, sellers failed
to disclose it, and the inspector should have found it.
The inspection defendants previously obtained a court
order to arbitrate as required by their contract. The
arbitrator has issued a ruling dismissing the claims
against the inspector defendants, who now seek to
enforce that ruling.1 Plaintiffs object and have filed a
motion to vacate the ruling (Motion # 8). The court
addresses both motions here.
Plaintiffs argued at a hearing on this matter that
an arbitrator does not have the authority to decide a
motion to dismiss. However, the arbitrator’s decision
states that the parties “agreed that the first order of
business is to address and decide the pending VRCP
12(b)(6) motion to dismiss.” Arbitrator’s Decision at 1.
It goes on: “The parties have agreed that I may
consider all submitted documents in addition to the
motion papers and I am empowered to decide the
pending motion.” Id. Thus, any objection to the
arbitrator ruling on the motion was waived.

1 The gist of the arbitrator’s ruling was that the contract
expressly excluded from the inspector’s duties any duty to look
for asbestos inside ceilings.

App.32a
Plaintiffs also argue that the arbitrator’s decision
can be reviewed because it showed a “manifest disregard
for the law,” and assert various reasons why they
believe his ruling was wrong. The court does not find
any such manifest disregard. Whether this court
would have reached the same conclusion is not the
issue. Courts “uphold[ ] arbitration awards whenever
possible.” Shahi v. Ascend Financial Services, Inc.,
2006 VT 29, 1110, 179 Vt. 434. The issue is whether
the process was fair and whether any statutory basis
for reversal appears. Id. The court finds no reason to
vacate the decision of the arbitrator here.
Plaintiffs’ other arguments are all about why the
earlier court order to arbitrate was wrong. Judges do
not generally revisit earlier judges’ rulings in a case
without some change in the evidence or the law, and
the court declines to do so here. See Morrisseau v.
Fayette, 164 Vt. 358, 364 (1995).
ORDER
The arbitrator’s ruling is affirmed. The claims
against Defendants Henning and Brickkicker/GDM
are dismissed. Mediation among the remaining parties
shall be done by May 1 as set forth in the existing
schedule.
Dated at Burlington this 28th day of January, 2019.
/s/ Helen M. Toor
Superior Court Judge

App.33a
Notifications:
Thomas C. Nuovo (ERN 3328), Attorney for Plaintiffs
Jeffrey M. Messina (ERN 4786), Attorney for Defendants Scott and Sharon Luck
Walter E. Judge (ERN 3427), Attorney for Defendants
Henning and Brickkicker/GDM Home Services,
Samantha V. Lednicky (ERN 7354), Attorney for
party 5 Co-Counsel
James W. Spink (ERN 2194), Attorney for Neutral
Mediator/Arbitrator/Evaluator James W. Spink

App.34a
OPINION AND ORDER OF THE SUPERIOR
COURT OF VERMONT ON MOTIONS TO DISMISS
(AUGUST 9, 2018)
SUPERIOR COURT OF VERMONT
CIVIL DIVISION, CHITTENDEN COUNTY
________________________
COLIN MASSEAU AND EMILY MACKENZIE,

Plaintiffs,
v.
SCOTT and SHARON LUCK; GUY HENNING,
and BRICKKICKER/GDM HOME SERVICES, INC.,

Defendants.
________________________
Docket No. 616-6-17
Before: Robert A. MELLO, Superior Judge.
INTRODUCTION
Plaintiffs have sued the seller and home inspector
of their recently-purchased residence in Essex Junction.
Per the complaint, unbeknownst to Plaintiffs, the
home, built in 1972, contained asbestos in the stucco
ceilings. Plaintiffs only discovered this after they had
made their purchase. Here is how that happened:
after buying their home, Plaintiffs were “scrapping
the textured ceiling off in the kitchen” as part of a selfdirected home remodel. Compl. at ¶ 17. During the
first night after having begun to work, Plaintiffs

App.35a
discovered, through internet research, that houses
built in the 1960s and 1970s “often contain asbestos.”
Unsure if their home had asbestos, they immediately
stopped their attempt to remodel, investigated whether
their house indeed had asbestos, learned that there
was contamination, and hired contractors to remove
the asbestos-containing materials. They also cleaned
and abated the residence. Id. at ¶¶ 18-24.
Plaintiffs believe that the seller misrepresented
their knowledge of the asbestos in their disclosure
form. Id. at 1 30. They also believe that the inspector
was required, by law, to disclose the possibility of
asbestos in the stucco ceilings so Plaintiffs could
decide whether to obtain a more detailed inspection.
Id. at ¶ 29. They have asserted three claims against
both the seller and the inspector: (1) Violation of
Vermont Unfair and Deceptive Acts or Practices
(UDAP) (9 V.S.A. § 2453) (id. at ¶¶ 31-44); (2) Negligent
Misrepresentation (id. at ¶¶ 45-50); (3) Breach of Contract or the Implied Covenant of Good Faith and Fair
Dealing (id. at ¶¶ 51-57). The fourth count of the complaint is against the inspector only: (4) Negligent
Inspection. Id. at ¶¶ 58-62.
Defendants Guy Henning and Brickkicker/GDM
Home Services, Inc. (“The Inspection Defendants”)
have moved to dismiss under Rule 12(b)(6), advancing
three theories,1 including an assertion that the case
should be submitted to arbitration as contracted.

1 The inspection defendants explain that the proper entity, with
whom Plaintiffs contracted, is GDM Home Services, LLC
(“GDM”). Brickkicker is owned by GDM. And GDM is owned by
Guy Henning.

App.36a
ARBITRATION
The contract between the Inspector Defendants
and the Plaintiffs contains a mandatory arbitration
clause.2 Plaintiffs acknowledge that they contracted
for arbitration, but have raised four arguments for
why the Court should not enforce this agreement: (1)
contrary to state law, the clause does not clearly
define mandatory arbitration by specifying that the
parties cannot bring a lawsuit in court; (2) a similar
version of this contract was previously held to be unenforceable by a majority of the Vermont Supreme
Court; (3) by moving to dismiss on the merits while
simultaneously requesting that the arbitration
agreement be enforced, Defendants have waived arbitration; (4) the agreed-to arbitrator has a conflict of
2 The front of the agreements says, at the bottom, in all capital
letters, “CONTRACT IS SUBJECT TO BINDING ARBITRATION.” Pltf’s Ex. 4. The back of the contract contains the actual
clause, which states, “6. Any dispute, controversy, interpretation
or claim for, but not limited to, breach of contract, any form of
negligence, fraud or misrepresentation or any other theory of
liability arising out of, from or related to this contract, the
inspection or inspection report shall be submitted to final and
binding arbitration under Rules and Procedures of the Expedited
Arbitration of Home Inspection Disputes of Construction Arbitration Services, Inc. The decision of the arbitrator appointed
thereunder shall be binding and judgment on the Award may be
entered in any court of competent jurisdiction. If no arbitration
proceeding is initiated by either party within one year of the date
of the inspection report, the failure to initiate the arbitration proceeding will be considered conclusive evidence that the parties
are satisfied that each has properly performed their obligations
under this agreement and any further action is deemed waived
and forever barred.” Id. The back of the contract also states, in
all capital letters “THIS CONTRACT IS SUBJECT TO BINDING
ARBITRATION.” Id.

App.37a
interest or is non-existent. The Court addresses each
of these arguments.
I.

The Arbitration Clause Is Governed by Federal
Law, in Which There Is No Separate Acknowledgment Requirement.
A. Federal Law Governs Arbitration Contracts
Involving Interstate Commerce.

The Federal Arbitration Act (FAA) “rests on Congress’ authority under the Commerce Clause.”
Preston v. Ferrer, 552 U.S. 346, 349 (2008). It applies
“not simply a procedural framework” in federal court;
rather, “it also calls for the application, in state as well
as federal courts, of federal substantive law regarding
arbitration.” Id. (citing Southland Corp. v. Keating,
465 U.S. 1, 16 (1984)).3 But, for federal arbitration law
3 Southland, which held that federal law favoring arbitration
preempts any contrary state law, was arrived at despite
significant doctrinal concerns from a diverse set of justices:


O’Connor, J.: Southland, 465 U.S. at 22-36 (O’Connor, J.
dissenting) (explaining that the plain language of
Sections 3 and 4 of the FAA support the interpretation
that the FAA only applies in federal court, not state court
proceedings); Allied-Bruce Terminix Companies, Inc. v.
Dobson, 513 U.S. 265, 282 (1995) (concurring) (joining
the majority opinion applying Southland on stare decisis
grounds, while noting, “I continue to believe that Congress never intended the Federal Arbitration Act to
apply in state courts, and that this Court has strayed far
afield in giving the Act so broad a compass.” (citing her
dissents in Perry v. Thomas, 482 U.S. 483 (1987) and
York International v. Alabama Oxygen Co., 465 U.S.
1016 (1984)).



Scalia, J.: Allied Bruce, 513 U.S. at 284 (dissenting)
(noting that though he joined two majority opinions in

App.38a

prior cases applying the FAA to state court proceedings,
neither involved a direct challenge seeking to overrule
Southland. And, explaining further that Southland
“clearly misconstrued” the FAA. Last, announcing that
he will not dissent from future judgments based on
Southland but will join a majority opinion overturning it
if there are four more justices willing to do so).


Thomas, J.: Id. at 286-288 (dissenting) (explaining that
at the time of the FAA’s passage, arbitration was understood to be a procedural rule, which Congress would not
have regulated in state courts), 292-293 (citing the legal
standard for field preemption, which requires “absolute
certainty” that Congress intended to displace state law,
and explaining that, quite to the contrary, Thomas is
“sure” that Congress did not intend to “sweep aside”
wide-spread state arbitration laws enacted at the time
the FAA was passed.); 294 295 (arguing that even if
Section 2 of the FAA did preempt state law, requiring
enforcement of arbitration agreements in state and federal courts, it does not necessarily follow that such
agreements must be enforced with the remedy of specific
performance); 296-297 (arguing that it was dicta when,
in Southland and its progeny, the Court stated that specific performance was the required remedy for violations
of an arbitration clause in state court (citing Southland,
465 U.S. at 4 (California state law voiding arbitration
clauses in franchise agreements preempted—this was dicta
because there was no state law holding that such agreements cannot be specifically enforced); Perry, 482 U.S. 483
(1983) (California labor law that allowed civil actions in
court for wage collection, despite existence of arbitration
clause, is preempted).



Stevens, J.: Southland, 465 U.S. at 18 (dissenting on the
enforceability of the arbitration clause) (explaining that
the scope of preemption under the FAA should be limited
and leave unaffected other areas of law that can, in his
view, be properly regulated by the states without
frustrating the intent of the FAA drafters); Perry, 482
U.S. at 493 (“It is only in the last few years that the Court

App.39a
to apply in state court there is one precondition of
consequence here: the case must involve interstate
commerce. See 9 U.S.C. §§ 1-2; Southland, 465 U.S.
1. This requirement is co-extensive with Congress’
Commerce power. Allied-Bruce Terminix Companies,
Inc., v. Dobson, 513 U.S. 265 (1995). So, the Court must
determine whether the contract here can be regulated
under Congress’ Commerce clause power.
B. The Arbitration Clause “Involves Interstate
Commerce.”
The Commerce clause grants Congress the power
“[t]o regulate Commerce with foreign Nations, and
among the several States, and with the Indian Tribes.”
U.S. Const. Art. I § 8 cl. 3. This includes “commerce
among the States, [and does not] stop at the external
boundary line of each State, but [continues] into the
interior.” Gibbons v. Ogden, 9 Wheat. 1, 189-190; 194
(1824). Interstate commerce, however, historically
was said not to include “commerce, which is completely
internal, which is carried on between man and man4
has effectively rewritten the [FAA] to give it a preemptive scope that Congress certainly did not intend.”).

Southland has also been widely criticized by the academy. See,
e.g., Schwartz, David; “The Federal Arbitration Act and the
Power of Congress over State Courts,” 83 Or. L Rev 542 (2004);
Moses, Margaret; “Statutory Misconstruction; How the Supreme
Court Created a Federal Arbitration Law Never Enacted by Congress” 34 Fla State Univ Law Rev 99 (2006). But it is also clearlyestablished mandatory authority.
4 This gendered syntax, penned in 1824, is outdated, much like
the limited conception of the commerce clause asserted in the
sentence.


Scalia, J.: Allied Bruce, 513 U.S. at 284 (dissenting)
(noting that though he joined two majority opinions in

App.40a
in a State, or between different parts of the same State,
and which does not extend to or affect other States.”
Id. As economies have become more interconnected,
however, this limitation has been stretched thin, nearly
to a breaking point. See, e.g., Wickard v. Filburn, 317
U.S. 111, 121 (1942) (Congress can regulate home-grown
wheat, intended entirely for personal use, because
although one farmer’s contribution to the national
demand for wheat may be trivial alone, his contribution
to that demand, taken together with that of many
others similarly situated, is not trivial.).
In Allied Bruce Terminix Companies, Inc. v.
Dobson, the plaintiff bought a home that turned out
to be infested with termites. The seller, prior to the
sale, had purchased insurance against this eventuality
through a national termite-inspection company and
transferred that insurance to buyer. Buyer brought an
action for damages against company and seller; company
moved to compel arbitration under their contract. The
Supreme Court, holding that the FAA was intended to
be co-extensive with the commerce clause, found that
the FAA applied to the inspection contract for two
reasons: the inspection company was a national concern
and the company shipped goods into the forum from
out-of-state. 513 U.S. at 269, 282.
In Citizens Bank v. Alafabco, Inc., builder sued a
bank that had provided financing for construction
prior cases applying the FAA to state court proceedings,
neither involved a direct challenge seeking to overrule
Southland. And, explaining further that Southland
“clearly misconstrued” the FAA. Last, announcing that
he will not dissent from future judgments based on
Southland but will join a majority opinion overturning it
if there are four more justices willing to do so).

App.41a
projects in Alabama. 539 U.S. 52 (2003). Builder and
bank had recently restructured the debt and agreed to
mandatory arbitration. The Alabama Supreme Court
reversed an order to submit a contract dispute to arbitration, holding that the restructuring agreement did
not have a “substantial effect on interstate commerce.”
Id. at 55. The state court explained that the restructured
debt was not an interstate transaction, the funds did
not originate out-of-state, nor was it part of an outof-state project. Id. The U.S. Supreme Court reversed,
criticizing the state court as “misguided” for “search[ing]
for evidence that a ‘portion of the restructured debt
was actually attributable to interstate transactions’ or
that the loans ‘originated out-of-state’ or that ‘the
restructured debt was inseparable from any out-ofstate projects.’” Id. at 56.
Instead of analyzing the transaction in this
narrow fashion to determine whether a contract is
within Congress’ Commerce Clause power, the Court
explained, trial courts must consider whether “in the
aggregate the economic activity in question would
represent ‘a general practice . . . subject to federal
control.’” Id. at 57, citing Mandeville Island Farms,
Inc. v. American Crystal Sugar Co., 334 U.S. 219, 236
(1948); Perez v. United States, 402 U.S. 146, 154
(1971); and Wickard v. Filburn, 317 U.S. at 127-128
(1942). Applying this test, the Alafabco Court pointed
to three reasons sufficient to apply the FAA to the
debt restructuring contract:
1)

Builder conducted business throughout the
southeastern United States;

2)

The debt was secured by assets brought to
Alabama from out-of-state.

App.42a
3)

The general practice of commercial lending
has a “broad impact” on the national economy
and Congress’ power to regulate this industry
is manifest.

Here, Plaintiffs argue that a home inspection
does not “substantially affect” interstate commerce.
Pltf’s Surreply. at 2 (citing Del Webb Communities,
Inc. v. Partington, 2009 WL 3053709, at *17 (D. Nev.
Sept. 18, 2009). 5 In Del Webb a developer sued an
inspection company for misrepresentations under the
Lanham Act. The inspection company advertised its
willingness to conduct home inspections for free; in
exchange the company would sue developers for
building code violations discovered through their
inspections. The District Court could not determine on
the summary judgment record whether the alleged
misrepresentations had been “made in interstate
5 Plaintiff also cites to United States v. Lopez, 514 U.S. 549 (1995)
(holding that the Gun-Free School Zones Act exceeded Congress’
commerce-clause power). This case provides little guidance here.
As explained below, this Court’s task is to determine whether
arbitration of home inspection contracts, and the home inspection
industry as a whole have a substantial impact on interstate
commerce. Lopez explained that possession of a gun on school
property is “in no sense an economic activity that might, through
repetition elsewhere, substantially affect any sort of interstate
commerce.” Id. at 567. It’s rather obvious that any contract for
services could “substantially affect” interstate commerce under
certain circumstances. And, the Supreme Court has explicitly
held that Lopez did not “announce a new rule governing Congress’ Commerce Clause power over concededly economic activity
such as [debt-restructuring agreements.]. Alafabco, 539 U.S. at
58. As explained below, just as the Commerce Clause Power was
not limited in Alafabco from regulating intrastate commercial
lending, it cannot be stopped from regulating intrastate home
inspections.

App.43a
commerce” because the content of the company’s
website, interstate mailings, and interstate marketing
phone calls was undeveloped. Id. at *16-17. And, the
district court reasoned that it “cannot find that home
inspections of Nevada homes have a substantial
impact on interstate commerce. Any impact would be
purely intrastate.” Id. at *17.
Here, the Court is bound by U.S. Supreme Court
precedent. It therefore must reason as that Court did
in Allied Bruce and Alafabco: in the aggregate, contracts entered by a national company to inspect homes
substantially impact interstate commerce. Indeed, the
Court supposes, it is manifest that the national real
estate market would be affected if inspection costs
were to rise in response to protracted litigation, if, for
example, contracts to arbitrate claims were routinely
invalidated. This reasoning utilizes the correct lens to
analyze a commerce clause issue, unlike the relatively
perfunctory analysis in Del Webb, which took an
incorrectly narrow view.
Under this analysis, the Inspector Defendants are
part of a national home inspection franchise called
The BrickKicker. 2011 VT 118 ¶ 2; Def’s Resp. to
Surreply at 3. Therefore, the Court holds that the FAA
applies to the contract between Plaintiffs and the
Inspector Defendants.
C. Vermont Law Disfavoring Arbitration Is
Preempted.
Preemption is “[t]he principle (derived from the
Supremacy Clause) that a federal law can supersede
or supplant any inconsistent state law or regulation.
Black’s Law Dictionary, 1216 (8th ed. 2004). State
laws that single out arbitration agreements to make

App.44a
them unenforceable— for reasons that do not apply to
other types of agreements—are preempted by the
FAA. Southland Corp. v. Keating, 465 U.S. 1, 16 (1984).
This is because the FAA only specifies common law
contract defenses (such as duress or unconscionability)
as permissible ways of invalidating such an agreement.
See 9 U.S.C. § 2; AT&T Mobility LLC v. Concepcion,
563 U.S. 333, 341 (2011) (explaining that state laws
outright prohibiting arbitration are preempted (citing
Preston v. Ferrer, 552 U.S. 346, 353 (2008)), but so are
doctrines normally thought to be neutral, such as
duress or unconscionability, when they are “applied in
a fashion that disfavors arbitration.” (citing Perry v.
Thomas, 482 U.S. 483; 492, n. 9 (1987)); see also, Marmet
Health Care Center, Inc. v. Brown, 565 U.S. 530 (2012)
(state law refusing to enforce nursing home admittance arbitration contract preempted); Kindred Nursing
Centers Ltd. Partnership v. Clark, 137 S. Ct. 1421,
1426-29 (2017) (state law—requiring clear statement
in power of attorney agreement before an agent permitted to contract to arbitrate for principal—is
preempted).
In AT&T, the Supreme Court analyzed whether
the FAA preempted California’s Discover Bank rule.
Discover Bank allowed consumers to demand class or
collective arbitration, even if their contract required
individual arbitration. To use the Discover Bank rule,
a consumer had to show three things: (1) they had
agreed to a contract of adhesion, (2) damages were
low, and (3) defendant schemed to cheat consumers.
The rationale was that companies should not effectively
immunize themselves against small dollar claims by
prohibiting, through contract, collective and class actions
where the cost of initiating the case would outweigh

App.45a
any recovery by an individual. If this were allowed,
the fashioners of the rule reasoned, consumers would
forego meritorious claims because no rational lawyer
would take a case where the filing fee is greater than
the potential judgment. Thus, consumer contracts
could effectively become exculpatory. A 5-4 majority
led by Justice Scalia held that the Discover Bank rule,
a judicial creation of the California Supreme Court,
was preempted by the FAA. AT&T, 563 U.S. at 346-47.
Here, Plaintiffs cite to no authority under federal
law for their argument that an arbitration clause
must specify that it bars the parties from proceeding
in court.6 Instead they rely entirely on state law. See
Pltf’s Opp. at 2 (citing 12 V.S.A. § 5652(b). Because
federal law on arbitration applies to this case the
Court rejects this argument. See David L. Threlkeld
& Co. v. Metallgesellschaft Ltd. (London), 923 F.2d
245, 250 (2d Cir. 1991) (“state statutes such as the
Vermont statute directly clash with . . . the Arbitration
Act because they effectively reincarnate the former
judicial hostility towards arbitration. Accordingly, we
hold that . . . the Arbitration Act preempt[s] the Vermont
statute.”).

6 Plaintiffs cite to Joder Building Corp. v. Lewis. 153 Vt. 115
(1989). But that case did not mention the issue of preemption.
Nor did it mention the Federal Arbitration Act. So, it is of little
use here.

App.46a
II.

Glassford v. Brickkicker, a 2011 Case Involving
Similar Inspector Defendants, and a Similar
Contract, Does Not Invalidate This Arbitration
Clause.

The Vermont Supreme Court held, in a fractured
3-2 opinion, that the limitation on liability clause in
the Inspector Defendants’ contract was unenforceable
because it acted in tandem with the arbitration clause
to effectively bar all liability. The Court explained
that the cost of filing a claim with the arbitrator, as
selected in the contract, was greater than the damages
allowed by the limitation clause. See 2011 VT 118
¶ 16, 191 Vt. 1. Consumer contracts that in effect contain exculpatory terms are analyzed under Dalury v.
S-K-I Ltd., 164 Vt. 329, 332 (1995). A plurality of the
Court held under the rationale from Dalury that the
two offending clauses in tandem were unconscionable
and therefore unenforceable; but the majority only
invalidated the limitations clause.
Here, the limitation of liability clause used in

Glassford has been excised from the contract. So,
unlike Glassford, this contract is not exculpatory. The
Dalury analysis therefore is of no consequence. Plaintiffs’
argument to the contrary is conclusory and unconvincing. They state that the terms of the arbitration
clause violate public policy and are “fundamentally
unfair.”7 But, they fail to explain how the arbitration
7 Plaintiffs misread Justice Dooley’s dissent in Glassford .
Plaintiffs quote a statement by Justice Dooley recounting the
argument made by the plaintiffs in the Glassford case. But they
use that quotation to characterize Justice Dooley’s opinion about
the fairness of the arbitration clause. Pltf’s Opp. at 4. However,
Justice Dooley made no such assessment. Rather, after quoting
the plaintiff’s arguments he explained that he would have

App.47a
agreement is substantively or procedurally unconscionable. See, e.g., Glassford, 2011 VT 118 at ¶ 13
(explaining that a court must find substantive or
procedural unconscionability to invoke unconscionability doctrine (citing Val Preda Leasing, Inc. v.
Rodriguez, 149 Vt. 129, 135 (1987)). The Court will not
supply a party, represented by competent counsel,
with arguments that it has not asserted. And even if
it could do so, the gravamen of the unconscionability
analysis in Glassford—that the limitation of liability
clause makes the contract exculpatory—is not present
here.
III. Defendants Have Not Waived Arbitration.
A. Defendants’ Request That the Court Dismiss
the Case During the Pendency of the Arbitration
Is Denied.
The FAA provides that if a case is filed in federal
court when it actually is subject to arbitration, a party
seeking to enforce the arbitration clause is entitled to
a stay “until such arbitration has been had in accordance
with the terms of the agreement . . . ” 9 U.S.C. ¶ 3
(emphasis supplied). This section of the FAA has not
remanded for the trial court to assess unconscionability of the
arbitration clause alone, rather than, as the majority did, hold
that both the arbitration clause and the limited liability clause
were unenforceable. Compare Glassford v. Brickkicker, 2011 VT
118 at ¶ 35 (Dooley, J. dissenting) and Id. at ¶ 30 (explaining, in
the majority opinion, that the arbitration clause is unenforceable
because Defendants should not benefit from a major component
(the arbitration clause) of its “scheme” to “offer an illusory
remedy.”). A Justice recounting the arguments by one party and
remanding a case for further consideration does not mean that
he or she has concluded that those arguments are meritorious.

App.48a
been held to preempt state law. Nor could it. See, e.g.,
Allied-Bruce Terminix Companies, Inc. v. Dobson ,
513 U.S. 265, 289 (1995) (Thomas, J. dissenting)
(“Most sections of the [FAA] plainly have no application in state courts, but rather prescribe rules for federal courts . . . [quoting from Section 3].”). As Defendants have noted, the Vermont Supreme Court has
allowed for the possibility that dismissal is a proper
remedy when seeking to enforce an arbitration
agreement. Hermitage Inn Real Estate Holding Co.,
LLC v. Extreme Contracting, LLC, 2017 VT 44, ¶ 43.
But, here Defendants have not presented any argument that dismissal is preferential to the more
common remedy—a stay pending arbitration. See 9
U.S.C. ¶¶ 3-4. Absent a rationale for departing from
the norm, the Court adopts the usual remedy to the
invocation of an arbitration clause.
B. Defendants Have Not Waived Their Right to
Arbitration by Moving for Dismissal on the
Merits in the Same Motion Where They Have
Asserted That Right.
A party can waive their contractual right to arbitration by proceeding in court in a fashion that
“express[es] its intent to litigate.” Louisiana Stadium

& Exposition Dist. v. Merrill Lynch, Pierce, Fenner &
Smith, Inc., 626 F.3d 156, 159 (2d Cir. 2010). Here,

the question is whether a defendant’s motion to
dismiss, which both invokes the arbitration clause
and also argues for dismissal on the merits, constitutes
such a waiver?
There is no mandatory authority in state or federal court on this question. And persuasive authorities
are split. Some circuits have stated that “a party does

App.49a
not waive its right to arbitrate merely by filing a
motion to dismiss.” Sharif v. Wellness Int’l Network,
Ltd., 376 F.3d 720, 726 (7th Cir. 2004). Others have
refused to find waiver where the Rule 12 motion invokes
a jurisdictional defense, Dumont v. Saskatchewan
Government Ins., 258 F.3d 880 (8th Cir. 2001), or
where, in the court’s estimation, the claims are
frivolous, Khan v. Parsons Global Services, Ltd., 521
F.3d 421, 427 (D.C. Cir. 2008). One consideration,
when a party moves to dismiss on the merits while
simultaneously demanding that an arbitration agreement be enforced is that they not get to play “heads I
win, tails you lose” by litigating an issue twice: in
court, and then at the arbitration. Hooper v. Advance
America, Cash Advance Centers of Missouri, Inc., 589
F.3d 917, 922 (8th Cir. 2009). As the court in Hooper
recognized, “motions to dismiss are not homogeneous.”
Id. Courts are instructed to consider the totality of circumstances. Id; Louisiana Stadium, 626 F.3d at 159
(“the key to a waiver analysis is prejudice.”).
Here the Court concludes that there is no waiver
for three reasons:
1)

The Court has analyzed the invocation of the
arbitration agreement as a threshold question.
Therefore, submitting any claims to arbitration, as contracted, will not provide the
Inspector Defendants a second bite at the
proverbial apple because this Court has
refrained from considering the merits here.

2)

There was no delay in Defendants’ assertion
of their right to arbitrate. Rather, they submitted it when their first responsive pleading came due.

App.50a
3)

Furthermore, to whatever extent Plaintiffs
may have been prejudiced by having to
respond to merits arguments for dismissal,
that burden is lessened by the fact that they
will still likely have to contend with substantially similar arguments in whatever venue
the claims are ultimately decided.

For these reasons, the Court holds that here the
Inspector Defendants have not waived their right to
arbitration by simultaneously filing a motion to dismiss
on the merits.
IV. Arbitrator’s Potential Conflict and Non-Existence
Do Not Invalidate the Entire Arbitration Contract.
The contract requires arbitration with “Construction Arbitration Services, Inc.” Plaintiffs have argued
that this arbitrator has a conflict of interest and that
it no longer exists. Defendants concede that if the
arbitration clause is enforceable they consent to the
use of another arbitrator, and ask to proceed “as if
there was no company specified in the contract.” Def’s
Rep. at 12. This is essentially a request to sever the
forum selection clause from the mandatory arbitration
clause. Indeed, the contract also contains a severability
clause.8
The “cardinal rule” when interpreting a contract
is the intent of the parties. Sullivan v. Lochearn, Inc.,
143 Vt. 150, 152 (1983). Severability is also known as
8 Any decision invalidating or not enforcing “any provision” of
the contract “shall not affect the other provisions of the contract,
and the contract shall be construed as if such invalid or enforceable [sic] provision had never been contained in the contract.”
Pltf’s Ex. 4.

App.51a
“the blue pencil test.” This is “[a] judicial standard for
deciding whether to invalidate the whole contract or
only the offending words. Under this standard, only
the offending words are invalidated if it would be
possible to delete them simply by running a blue
pencil through them, as opposed to changing, adding,
or rearranging words.” Black’s Law Dictionary,
“Severability” (see “Blue-Pencil Test) (10th ed. 2014)
(Westlaw). Because the parties contracted to allow
courts to use the Blue-Pencil Test the Court holds that
the issue of who will oversee arbitration of this case is
severable. See also, Dominguez v. Finish Line, Inc.,
439 F. Supp. 2d 688, 691 (W.D. Tex. 2006) (“Because
of this severability provision, the Court finds that the
Indiana forum-selection clause does not render the
otherwise valid arbitration agreement between the
parties invalid or unenforceable.”).
Plaintiffs have challenged the existence and
impartiality of the contracted arbitrator. And Defendants do not contest that challenge. So, the Court hereby strikes the end of the first sentence9 of the arbitration clause, starting at the word “under.” The first
sentence shall now be, in its entirety, the following:
“Any dispute, controversy, interpretation or claim for,
but not limited to, breach of contract, any form of negligence, fraud or misrepresentation or any other
9 This sentence originally stated, “Any dispute, controversy,
interpretation or claim for, but not limited to, breach of contract,
any form of negligence, fraud or misrepresentation or any other
theory of liability arising out of, from or related to this contract,
the inspection or inspection report shall be submitted to final and
binding arbitration under Rules and Procedures of the Expedited
Arbitration of Home Inspection Disputes of Construction Arbitration Services, Inc.”

App.52a
theory of liability arising out of, from or related to this
contract, the inspection or inspection report shall be
submitted to final and binding arbitration.”

App.53a
ORDER
The Court hereby stays the proceedings between
Plaintiffs and the Inspector Defendants pending the
outcome of arbitration. Because the Court has invalidated the arbitrator selection clause, the parties shall
meet and confer to identify a mutually-agreed substitute arbitrator. The Inspector Defendants’ motion to
dismiss, in all other respects, is hereby denied without
prejudice.
SO ORDERED this 9th day of August, 2018
Robert A. Mello
Superior Judge

App.54a
ARBITRATOR’S DECISION
(NOVEMBER 9, 2018)
STATE OF VERMONT, SUPERIOR COURT
CIVIL DIVISION, CHITTENDEN UNIT
________________________
COLIN MASSEAU and EMILY MACKENZIE,

Plaintiffs,
v.
SCOTT and SHARON LUCK; GUY HENNING,
and BRICKKICKER/GDM HOME SERVICES, INC.,

Defendants.
________________________
Docket No. 616-6-17 Cncv
Pursuant to an ORDER of the Chittenden Unit
Superior Court, Plaintiffs and Defendants Henning
and GDM (not including the claims against Defendant
Luck) must arbitrate their case. The relevant parties
have selected James W. Spink as the sole arbitrator.
The parties conferred with the arbitrator on 27
September, 2018 and agreed that the first order of
business is to address and decide the pending VRCP
12(b)(6) motion to dismiss the claims of Mr. Masseau
and Ms. MacKenzie against GDM and Mr. Henning.
The parties have agreed that I may consider all submitted documents in addition to the motion papers and
I am empowered to decide the pending motion.

App.55a
I have now considered all relevant documents
and have considered the arguments of counsel.
All claims against GDM and Mr. Henning are
DISMISSED. I will briefly state the reasons supporting
this decision:
The scope of the contractual undertaking by
GDM/Henning is set forth in the contract between
these parties and is unmistakably limited in scope.
The two page contract (face and reverse) indicates, in
several locations, that the inspection is limited in scope.
Mr. Masseau chose the “Standard Home/Building
Inspection” at a cost of $375. (He could have opted for
a more comprehensive inspection—at a much greater
cost—but chose not to do so. In addition, he could have
opted for an a la carte inspection of one or more environmental or additional services but opted not to).
Significantly, the reverse side of the contract in
question states: “The Client acknowledges what is
being contracted for is a building inspection and not
an environmental evaluation and the inspection is not
intended to detect, identify or disclose . . . the presence
of asbestos. . . . All of the foregoing items are outside
the scope of the services provided under this contract,
unless otherwise agreed to in writing and signed by
both parties.” There is no such additional writing.
At the bottom of page two, the contract states:
“There are many aspects pertaining to the condition,
function and operation of buildings . . . that go beyond
the standard home/building inspection scope and procedure. . . . No list will ever be complete but the items
highlighted below serve as a partial list of those items
beyond the capacity of our work: . . . Assessment of
environmental hazards of any type”

App.56a
The Administrative Rules For Property Inspectors
do not aid Plaintiffs’ claims. Rule 3.2 (e)(3)(C) states
that (e) General Limitations. The inspector is not
required to: (3) determine: (C) the presence, absence,
or risk of asbestos . . . or any other environmental
hazard. . . provided, however, that licensees shall report
visible and patent evidence of asbestos . . . ”
There can be, on these facts, no assertion or claim
that there was “visible and patent” evidence of asbestos in this home at the time of inspection. Indeed,
asbestos wasn’t discovered until the new owners
began their renovation work on the ceiling. The sellers
had represented to the buyers that there was no
asbestos in this home; an assertion that the buyers had
every right to rely upon and apparently did rely upon.
The claims against the Lucks are in no way affected
by this decision.
A careful reading of the Complaint (notably
paragraphs 10-15, 28-29, 38, 40, 47, 54 and 60 but
considering the entire document and all separate
theories and claims presented), it is clear that the fundamental assertion of alleged wrongdoing by the
inspector is that Mr. Henning and GDM failed to warn
or advise these new homeowners of the possibility that
there might be hidden asbestos in this house, particularly in the stucco ceiling(s). While it is asserted that it
is “common knowledge” that homes built in the 70s or
homes with stucco ceilings might harbor hidden
asbestos and while it is asserted that Vermont law
“requires” an inspector to give people such as these
buyers recommendations for further evaluations by
specialists (including disclosing the potential existence
of asbestos), there is no support offered for these
conclusory assertions.

App.57a
On the contrary, the terms of this contract make
clear that there is no such obligation and the Administrative Rules also support the contrary conclusion.
The Glassford decision—discussed in the motion papers
by both parties—is inapposite on these facts.
Accordingly, I am required to conclude that the
terms of the contract between these parties clearly
shows that the inspection was limited in scope; clearly
excluded—by its express terms—any obligation to
examine for asbestos; and was understood by Mr.
Masseau to be a standard (limited) inspection. Additional inspection services were made available to
plaintiffs but were declined. Taking as true all factual
(non-conclusory) allegations of the Complaint, it is
clear that there is no factual basis to support any of
the plaintiffs’ asserted claims against GDM or Mr.
Henning.
Again, this decision in no way limits or affects
plaintiffs’ claims asserted ins heir sellers who remain
named defendants in this case.
/s/ James W. Spink
Arbitrator
Dated: 11.9.2018

App.58a
INSPECTION CONTRACT
(OCTOBER 17, 2016)
1a. CONTRACT PROVISIONS
***THIS IS A LIMITED INSPECTION***
PLEASE READ CAREFULLY
With payment of the inspection fee as consideration,
the Client, whose signature appears on this contract
(“Client”) and The BrickKicker/GDM Home Services,
LLC (“Inspection Company”) agree to the full and
complete acceptance of the following Contract Provisions and Conditions (see reverse side).
Inspection
It is our understanding and agreement that this
inspection is (a) limited in scope, (b) not a Building
Code compliance inspection, and (c) being-was conducted
in accordance with all conditions and provisions listed
here or on the reverse of this page and are a part of
and included with this Property Inspection Report.
The Standard Home/Building Inspection
The Standard Home/Building Inspection (“Standard Inspection”) is a visual, non-invasive examination
of the essential external and internal structural components, readily accessible heating, cooling, electrical
and plumbing systems of the building as defined
under the standards and scope for home inspections
established by the American Society of Home Inspectors
(ASHI) or the National Association of Home Inspectors
(NAHI). The Standard Inspection is performed by a
generalist who will report the conditions and symptoms
observed, but not the cause or remedy.

App.59a
In the Standard Inspection the inspector will:
observe the structural components of the house and
garage, wall cladding and trim, roofing, flashing,
chimney exterior, decks and balconies. The inspector
will operate permanently installed heating systems
using normal controls, the central cooling system when
weather permits, plumbing fixtures, built-in appliances
and a representative number of electrical outlets, doors,
and windows. The inspector will also generate a Property Inspection Report addressing those items covered
by the Standard Inspection.
In the Standard Inspection the inspector will not:
remove floor or wall coverings, move furniture or stored
items, open walls or perform any type of destructive
testing. The inspector will not dismantle equipment,
operate shutoff valves, engage pilot lights or inspect
systems that have been shut down. Additionally, the
inspector will not inspect items inaccessible because
of soil, vegetation, walls, floors, carpets, furnishings
or household belongings, water, ice, snow, or other
conditions that would be a danger to the inspector.
The inspector will not render an opinion or generate
a Property Inspection Report addressing those items
that are beyond the scope of the inspection.
The Comprehensive Home / Building Inspection
The Comprehensive Home/Building Inspection
(“Comprehensive Inspection”) is conducted by a team
of professionals, requires approximately eight hours
to complete and requires a second day visit. A Comprehensive Inspection will automatically require a seven to
ten day lead time. The Comprehensive Inspection
covers all the elements of the Standard Inspection and
additionally includes: electric circuit load analysis, heat

App.60a
distribution by volume analysis, in-depth inspection
(which requires dismantling) of furnaces, boilers, heat
pumps, central air conditioners. It will also include:
heat loss surveys, video cams of main sewer lines and
chimneys, and full operational testing of windows,
doors, electrical outlets, switches and fixtures. The
Comprehensive Inspection is much more costly than
the Standard Inspection (a minimum $3,500 fee will
be charged) and requires the Clients execution of a
separate contract distinct from this contract.
Inspection fee: $3,500.00 minimum (This service
must be scheduled separately.)
Acceptance of the Standard Home/Building Inspection
By virtue of your marked acceptance and initials
below, you acknowledge the following:
 You understand the difference between the
Standard Home/Building Inspection and the
Comprehensive Home/Building Inspection;
 You understand that the Comprehensive Home/
Building Inspection is more costly than the
Standard Home/Building Inspection; and
 You agree that the inspection you are contracting
for is the Standard Home/Building Inspection,
and not the Comprehensive Home/Building
Inspection.

App.61a
Inspection Fee* $ 375.00


Accepted with Client’s or Client Agent’s Initials:
CNM

* Subject to inspector’s on-site review

Environmental & Additional Services
As part of the document selection that accompanies
every inspection report prepared by the Inspection
Company, there will be a reference to the environmental and safety concerns of Lead, Asbestos, Radon Gas,
Carbon Monoxide, Molds and Mildew. Although testing
or inspecting for any of the above service is beyond the
scope of the Standard Home/Building Inspection, The
Inspection Company may offer testing or inspections
of the following elements for an additional charge
independent of the Standard Home/Building Inspection.
Services accepted are priced below:


Radon

$ _____



Termite (wood destroying insects)

$ _____



Other

$ _____



Other

$ _____

Total Environmental and Additional Services:
$ _____


Accepted with Client’s or Client Agent’s Initials:
_____

App.62a
Final Walk-Through
The inspection recites the condition of the property
AT THE TIME OF THE INSPECTION ONLY and is not
a substitute for the Client’s responsibility to perform
a complete and thorough pre-settlement walk-through.
A non-exhaustive final walk-through checklist is provided as part of the Inspection Report documents for
the Client’s use. The Inspection Company accepts no
responsibility for the final walk-through unless the
Inspection Company performs the final walk-through. A
final walk-through may be performed by the Inspection
Company, at the Clients request, and arranged for an
additional fee to be described in a space above.
Limitations/Use of Inspection Report and Related
Services
The inspection findings, any reporting and-or
testing results rendered or described above are performed and prepared for the confidential and exclusive
use and possession of the Client and are NOT
intended to provide complete information about the
home-building. Neither the inspection findings, any
reporting or testing results should be solely relied upon
and/or used to make decisions as to whether or not the
home/building should or should not be purchased. The
inspection findings, any reporting or testing results
are the sole property of the Client and are not
transferable to any other party. Disclosure: The Seller
may be required to disclose certain issues to the Buyer.
Any issues previously disclosed should be considered
by the Buyer and communicated to the Inspection
Company prior to the above services being performed.
Total Fee All Services $ 375.00

App.63a
PAYMENT IS REQUIRED AT THE TIME OF SERVICE
Please make check payable to: The BrickKicker
I understand this inspection is being conducted
solely for my purposes and use and is not transferable.
I agree to the Contract Provisions and Inspection
Contract Conditions (on reverse), and acknowledge
my responsibility to thoroughly read and carefully
interpret the inspection report and its accompanying
material. Additionally, I authorize, upon request
disbursement of the inspection report and any accompanying materials or documents to those parties
designated as my agent or representative pertaining
to the transaction associated with this address.
Address Inspection
134 Osgood Hill Rd, Essex Jct, VT 05452
/s/ Colin Masseau
Date 10/17/2016
The BrickKicker, by:
/s/ {illegible}
Agent/Inspector
Date 10/17/2016
CONTRACT IS SUBJECT TO BINDING ARBITRATION
***THIS IS A LIMITED INSPECTION***

App.64a
1b. INSPECTION CONTRACT CONDITION
1. This inspection (a) is limited to the major
systems of the building and improvements, (b) renders
only the opinion of the inspector and (c) is based upon
items readily accessible and observable. This inspection is essentially visual, not technically exhaustive and,
in some instances, only provides for sample testing. It
does not imply that every defect will be discovered.
The Client agrees to accept all risks that are concealed
from view, inaccessible to the inspector at time of
inspection, or excluded from inspection by the terms
and conditions of this agreement. This contract does
not include within its scope any of the building’s systems,
structures, or components which are inaccessible,
concealed from view, or which cannot be inspected due
to circumstances beyond the control of inspector. It is
understood the inspector will not perform invasive
testing or examinations, or move furniture or fixtures
in order to conduct the inspection.
2. This Property Inspection Report recites symptoms observed, but does not conclusively establish the
cause of any such symptom or defect; such cause(s)
can only be determined by further detailed investigation. IT IS FULLY UNDERSTOOD AND AGREED
that any such investigation and determination is beyond
the scope of this inspection.
3. The Client acknowledges that observations
communicated to the Client during the course of the
inspection, or findings included in the Property Inspection Report, which may be outside the scope of the
Standard Home/Building Inspection, are not to be
construed to establish a standard or imply an expanded

App.65a
scope of the inspection. Any such observations or
findings are offered merely as additional information.
4. The Client acknowledges what is being
contracted for is a building inspection and not an
environmental evaluation and the inspection is
not intended to detect, identify, alert, or disclose
any health or environmental concerns regarding the
building(s) and/or adjacent property, including, but
not limited to, the presence of asbestos, radon, lead, urea
formaldehyde, fungi, mold, conditions related to mold,
bio-organic growth, conditions related to animals,
rodents, insects, wood-destroying insects or organisms,
pathogenic organisms, PCB’s, or any other toxic
materials or substances contained in the water, air,
soils, or building materials or products. All of the
foregoing items are outside the scope of the services
provided under this contract, unless otherwise agreed
to in writing and signed by both parties.
5. As a condition precedent to pursuing any claim
against the Inspection Company arising out of this
inspection or subsequent Property Inspection Report,
no matter the theory of liability, the Client must first
provide written notice of the claim to the Inspection
Company within a reasonable time after taking possession of the property. Inspection Company must be
allowed to re-inspect the subject properly to investigate
the claim, BEFORE ANY REPAIRS ARE MADE, except
in an emergency, prior to any resolving action. THE
CLIENT UNDERSTANDS AND AGREES THAT
FAILURE TO GIVE SUCH NOTICE OR OPPORTUNITY TO REINSPECT AS STATED ABOVE SHALL
CONSTITUTE A WAIVER OF ANY AND ALL SUCH
CLAIMS.

App.66a
6. Any dispute, controversy, interpretation or
claim for, but not limited to, breach of contract, any
form of negligence, fraud or misrepresentation or any
other theory of liability arising out of, from or related
to this contract, the inspection or inspection report
shall be submitted to final and binding arbitration
under Rules and Procedures of the Expedited Arbitration of Home Inspection Disputes of Construction
Arbitration Services, Inc. The decision of the arbitrator
appointed thereunder shall be binding and judgment on
the Award may be entered in any court of competent
jurisdiction. If no arbitration proceeding is initiated
by either party within one year of the date of the
inspection report, the failure to initiate the arbitration
proceeding will be considered conclusive evidence that
the parties are satisfied that each has properly performed their obligations under this agreement and any
further action is deemed waived and forever barred.
7. Anything to the contrary notwithstanding,
payment of the inspection fee within ten (10) days of
the inspection is a condition precedent to any right or
interest in the inspection, or the Property Inspection
Report, and to all claims for relief, redress, or damages
against the Inspection Company.
8. No representations or warranties have been
made concerning the property’s conformance with
applicable government building codes or The Comprehensive Environmental Response Compensation and
Liability Act 1980 (“CERCLA”), as amended, pertaining to environmental hazards. It is agreed that the
inspector will not, as part of this inspection, determine
compliance with installation guidelines, construction
documents, manufacturers’ specifications, building
codes, local ordinances, zoning regulations, covenants,

App.67a
or other restrictions, including local interpretations
thereof. The Inspection Company offers no guarantee
or warranty, whether express or implied, as to the future
condition of the subject property. THE INSPECTION
COMPANY EXPRESSLY DISCLAIMS ANY AND
ALL EXPRESSED AND/OR IMPLIED WARRANTIES
PERTAINING TO THE PROPERTY’S MERCHANTABILITY AND/OR FITNESS FORA PARTICULAR
PURPOSE.
The Inspection Company is not an insurer and
the Client will obtain from an insurer any insurance
the Client desires. The amount the Client pays to the
Inspection Company is based entirely upon the services
performed by the Inspection Company and the limited
liability assumed by the Inspection Company pursuant
to this contract is unrelated to the value of the property or the property of others located in the premises.
In the event of any loss or injury to person or property,
the Client agrees to look exclusively to the Clients’
insurer to recover any damages. The Client waives all
subrogation and/or other rights of recovery against the
Inspection Company that any insurer or other person
may have as a result of paying any claim for loss or
injury to person or property.
9. If any provision of this contract shall for any
reason be held invalid or unenforceable (except for the
payment provision contained herein), such invalidity or
unenforceability shall not affect the other provisions
of the contract, and the contract shall be construed as
if such invalid or enforceable provision had never been
contained in the contract.
10. The parties agree that this contract contains
the entire agreement and understanding between the
parties and that its terms are contractual in nature

App.68a
and supercede all prior agreements and understandings,
whether oral or written, between the parties.

